Supreme Court, U.S.
FILED

WAIVER

AUG 1 9 2020
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

20-5114

Leonel Romero-Ochoa •

State of Washington

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
E] Please enter my appearance as Counsel of Record for all respondents.
0 There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

Pierce County Prosecutor's Office on behalf of the State of Washington
[Petitioner has also listed separately James Key, Pierce Co. Superior Court, and the Attorney General's Office - I do not represent those parties]

0 I am a member of the Bar of the Supreme Court of the United States.
Ej I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member.
Signature
Date.

Digitally signed by Britta Halverson
Date: 2020.08.19 09:32:51 -07'00'

Britta Halverson

August 19, 2020

(Type or print) Name

Britta Ann Halverson
0 Mr. 0 Ms. 0 Mrs. 0 Miss

Firm

Pierce County Prosecutor's Office

Address

930 Tacoma Avenue South, Room 946

city & State Tacoma, WA
253-798-2912
Phone

Zip
Email

98402

britta.halverson@piercecountywa.gov

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Leonel Romero-Ochoa (pro se)

RECEIVED
AUG 2 6 2020
EK
SUPREME COURTU.S.

Pierce County
Office of Prosecuting Attorney

MARY E. ROBNETT
Prosecuting Attorney

REPLY TO:
CRIMINAL FELONY DIVISION
930 Tacoma Avenue South, Room 946
Tacoma, Washington 98402-2171 .
Victim-Witness Assistance: (253) 798-7400
(FAX) (253) 798-6636

Main Office: (253) 798-7400
(WA Only) 1-800-992-2456

August 19, 2020

Supreme Court of the United States
Clerk's Office
1 First Street, NE
Washington, DC 20543

RE:

Leonel Romero-Ochoa, Petitioner v. State of Washington, Respondent
Case No. 2,0-5114 , •

To Wliorii It May COncern:
The Respondent, Pierce County Prosecutor's Office on behalf of the State of Washington, does not
intend to rile a response to the petition for a writ of certiorari unless one is requested by the Court.
Enclosed Please find the State of Washington's Waiver for filing in this matter.

Sincerely,

s/ Britta Ann. Halverson
Britta Ann Halverson.:
Deputy. Prosecuting Attorney.
Pierce County Prosecutor's Office
WSBA #44108
Attorney for Respondent, State of Washington
cc:

Leonel Romero-Ochoa, pro se

RECEWED
AUG 2 6 2020
OFFICE OF THE CLERK
SUPREME COURT, U.S.

4'

w~
Printed on recycled paper

